5

J0°8

QfeGJMAJL
filed
MAR 3 0 2021

IN THE
SUPREME COURT OF THE UNITED STATES

DANIEL LITTLEPAGE

— PETITIONER

(Your Name)

vs.
STATE OF OHIO

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

SUPREME COURT OF OHIO
(NAME OF COURT THAT LAST RULED ON MERITS OF YdUR CASE)
PETITION FOR WRIT OF CERTIORARI

DANIEL LITTLEPAGE

(Your Name)
P.O. BOX 5500

(Address)
CHILLICOTHE, OHIO 45601
(City, State, Zip Code)
N/A
(Phone Number)

QUESTIONS) PRESENTED
1. Is a Petitioner Entitled to a New Trial when the "Bias" and
"Partial" behavior of a Trial Judge exceeds the Requirement
to prove "Structural" Error?(See Appendix E)
2. Does the "Bias" and "Partial" behavior that went into Appendix
II Violate Petitioner's Due Process and Equal Protection Rights
under the Fifth and Fourteenth Amendments to the United States
Constitution?
3. Is it an Abuse of Discretion and a Violation of Ohio Civ.R.8
(D) for the Court of Common Pleas, to Not respond to a proper- ■ ly filed "Structural" Error Motion? (See Appendix B in lieu of
Order / Judgment that has Not been rendered.)
3a. Does this failure to respond as noted in 3. above represent .
the admission on the part of.the Court of Common Pleas, Hamil­
ton County, Ohio, that Petitioner's Argument is Correct?
4. Is it an Abuse of Discretion for the First District Court of
Appeals to Not respond to Petitioner's "Summary Judgment,"
Motion against the Court of Common Pleas? (See Appendix A in
lieu of Order / Judgment that has Not been rendered.)
5. Is it an Abuse of Discretion for
Ohio to Dismiss a properly filed
them to order the First District
Petitioner's "Summary Judgment"?

the State Supreme Court of
Writ of Mandamus, requesting
Court of Appeals to address
(See Appendix C and D))

6. Does a Trial Judge Lose his Immunity when he executes a Fraud­
ulent Order and Violates 28 U.S.C. § 47, which states "No
Judge Shall Hear or Determine An Appeal From The Decision of
A Case Or Issue Tried By Him"? (See Appendix E)
7. Is a Trial Judge's Judicial Immunity overcome if 1) The act­
ions "Alleged" were not taken in the Judge's Judicial Capac­
ity, or 2) If the actions, though judicial in nature were

J

taken in the complete absence of all jurisdiction??(See Appen­

dix EO
8. Is a Court of Common Pleas

Judge, who Executes a Fraudulent

Order Guilty of "Using Sham Legal Process" - A Violation of
Ohio R.C. 2921.52? (See Appendix E)
9. Is a Court of Common Pleas Judge, who Executes a Fraudulent
Order Guilty of "Impersonating" - A Violation of Ohio R.C.
2921.51? (See Appendix E)
10. Is a Court of Common Pleas Judge, who Executes a Fraudulent
Order Guilty of "Fraud" - A Violation of Ohio R.C. 2913.01?
(See Appendix E)
11. Is a Court of Common Pleas Judge, who Executes a Fraudulent
A Violation of Ohio R.C.
Order Guilty of "Falsification"
2921.13? (See Appendix E)
12. Is a Court of Common Pleas Judge, who Executes a Fraudulent
Order Guilty of "Forgery" - A Violation of Ohio R.C. 2913.31?
(See Appendix E)
1 ~

13. Is a Court of Common Pleas Judge, who Executes a Fraudulent
Order Guilty of "Corrupt Activity" - A Violation of Ohio
R.C. 2923.32? (See Appendix E)
14. Is a Court of Common Pleas Judge, who Executes a Fraudulent
Order Guilty of "Obstructing Justice" - A Violation of Ohio
R.C. 2921.32? (See Appendix E)
15. Is a Court of Common Pleas Judge, who Executes a Fraudulent
Order Guilty of "Identity Fraud" - A Violation of Ohio R.C.
2913.49? (See Appendix E)

2

16. Is a Court of Common Pleas Judge, who Executes a Fraudulent
Order Guilty of "Dereliction of Duty" - A Violation of Ohio
R.C. 2921.44? (See Appendix IS)
17. Is a Court of Common Pleas Judge, who Executes a Fraudulent
Order Guilty of "Tampering with Evidence" - A Violation of
Ohio R.C. 2921.13? (See Appendix E)
18. Is a Court of Common Pleas Judge, who Executes a Fraudulent
Order Guilty of "Conspiracy" - A Violation of Ohio R.C. 2923.
01? (See Appendix E)
19. Is a Court of Common Pleas Judge, who Executes a Fraudulent
Order Guilty of "Complicity" - A Violation of Ohio R.C. 2923.
03? (See Appendix E)
20. Is a Court of Common Pleas Judge, who Creates and Executes a
Forged and Fraudulent Order with No_ Authority or Jurisdiction
Guilty of Fraud Upon The Court? (See Appendix E)
21. Is a Judge, who Executes a Fraudulent Order and who Instructs
the Clerk of Courts to Mail it to Petitioner Guilty of "Mail
A Violation of 18 U.S.C. 1341 and 18 U.S.C. 1342?
Fraud"
22. Is a Judge, who Executes a Fraudulent Order and who Instructs
the Clerk of Courts to Mail it to Petitioner Guilty of "Us­
ing Mail To Defraud" - A Violation of 18 U.S.C. 1342?
23. Is a Judge, who Executes a Fraudulent Order and who Instructs
the Clerk to Mail it to Petitioner Guilty of "Conspiracy To
A Violation of 18 U.S.C. 371?
Commit Mail Fraud"

3

LIST OF PARTIES

in All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover hage. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

TABLE OF CONTENTS
OPINIONS BELOW ................................................................
JURISDICTION ....................................................................
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE ..................................................
REASONS FOR GRANTING THE WRIT ..............................
CONCLUSION ..........................................................

1
2
3
4-6
7-14
14

INDEX TO APPENDICES
APPENDIX A - In Lieu of Order / Judgment that Refuses to be
Rendered by the First District Court of App eals.
APPENDIX B - In Lieu of Order / Judgment that Refuses to be
Rendered by the Court of Common Pleas, Hami lton
County, Ohio.
APPENDIX C - Decision to Dismiss Writ of Mandamus by the Supreme
Court of Ohio.
APPENDIX D - Writ of Mandamus to the Supreme Court of Ohio.
APPENDIX E - Forged and Fraudulent Order created and exe cuted by
a Judge with no authority and no jurisdicti on.
APPENDIX F

Petitioner's Criminal Record.

TABLE OF AUTHORITIES CITED
STATUTES AND RULES CITED IN
QUESTIONS PRESENTED
28 U.S.C. § 47
O.R.C. 2921.52
O.R.C. 2921.51
O.R.C. 2913.01
O.R.C. 2921.13
O.R.C. 2913.31
O.R.C. 2923.32
O.R.C. 2921.32'
O.R.C. 2913.49
O.R.C. 2921.44
O.R.C. 2921.12
O.R.C. 2923.01
O.R.C. 2923.03
18 U.S.C. § 1341
18 U.S.C. § 1342
18 U.S.C. § 371
CASES CITED IN
STATEMENT OF THE CASE
Withrow v. Larkin, 421 U.S. 35, 47, 95
S.Ct. 1456, 43 L.Ed. 2d 712 (1975)

PAGE
1
2
2
2
2
2
2
2
2
3
3
3
3
3
3
3
PAGE
6

STATUTES AND RULES CITED IN
STATEMENT OF THE CASE - NONE
CASES CITED IN
REASONS FOR GRANTING THE PETITION
Arizona v. Fulminante J 499 U.S. 279 (1991)
Turney v. Ohio, 273 U.S. 510 (1927)
Re Murchinson, 349 U.S. 57 (1955)
Ward v. Village of Monroeville, 409 U.S.
57 (1972)
Bracy v. Gramley, 520 U^S. 899 (1997)

PAGE
7
7
7
7
7

TABLE OF AUTHORITIES CONT.
State v. Lamar, 95 Ohio St. 3d 181, 2002-0hio-2128,
767 N.E.2d 166, fl34, citing Rose v. Clark, 478 U.S.
570, 577, 106 S.Ct. 3101, 92 L.Ed.2d 460 (1986)
Turney v. Ohio, 273 U.S. 510 (1927)
Forrester v. White, 484 U.S. @ 227-229 (1988)
Stump v. Sparkman, 435 U.S. @ 360 (1978)
Ex Parte Virginia, 100 U.S. 339, 348-349, 25 L.Ed.;
676 (1880)
Ireland v. Tunis, 113 F.3d-1435, 1997 Fed. App.
0156 (1997)
Bradley v. Fischer, 13 wall. @ 351 (1872)
Coley v. Bagley, 706 F.3d 741 (2013)
Withrow v. Larkin, 421 U.S. 35, 47, 95 S.Ct. 1456,
43 L.Ed.2d 712 (1975)
Withrow v. Larkin, 421 U.S. 35, 47, 95 S.Ct. 1456,
43 L.Ed.2d 712 (1975)
Liljeberg v. Health Service Acquisition Corp., 486
U.S. 847, 108 S.Ct. 2194 (1988)
United States v. Balistrieri, 779 F.2d 1192 (1985)
Turney v. Ohio, 273 U.S. 510 (1927)
Neder v. United States, 527 U.S. @ 8 (1999)
Edwards v. Balisok, 520 U.S. 641, 647 (1997)
STATUTES AND RULES CITED IN
REASONS FOR GRANTING THE PETITION - NONE

8

8
8
8
8
9
9
9
9
10
10
10
11
11
11

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review tie judgment below.

OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at A ppendix
the petition and is
[ ] reported at__________
; or,
[ ] has been designated for publication but is not yet reported J or,
[ ] is unpublished.
The opinion of the United States district court appears at Aonendix
the petition and is
[ ] reported at________ _________________ ______ _
—5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[xJ For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix —C— to the petition and is
Cx3 reported at 2020-1358____________ _______________ Qr^
[ ] has been designated for publication but is not yet reported; or,
[XI is unpublished.
The opinion of the_
court
appears at Appendix
to the petition and is
[ ] reported at____ ___________________ ____________ _ or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

to

to

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was ______ ________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:------------ ------------------ and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including---------------- -------- (date') on
in Application No___ A
---------------------k
)
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

lx] For cases from state courts:
The date on which the highest state court decided my case was 1/27/21
A copy of that decision appears at Appendix
[ ] A timely petition for rehearing was thereafter denied on the following date:
>
a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on _____________ (date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
First Amendment; Congress shall make no law respecti ng an
establishment of religion, or prohibiting the free e zeroise
thereof; or abridging the freedom of speech, or of the press;
or the right of the people peaceably to assemble, and to peti­
tion the Goverment for a redress of grievances.
2• Fifth Amendment; No person shall be held to answer for a
capital, or otherwise infamous crime, unless on a present­
ment or indictment of a Grand Jury, except in cases arising
in the land or naval forces, or in the Militia, when in actual service in time of War or public danger; nor shall any
person be subject for the same offense to be twice put in
jeopardy of life or limb; nor shall be compelled in any crimi­
nal case to be a witness against himself, nor be deprived of
life, liberty, or property, without the Due Process of law;
nor shall private property be taken for public use, without
just compensation.
3* Fourteenth Amendment: All persons born or naturalized in the
United States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State whereiin they
reside. No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life, or
liberty, or property, without Due Process of law; noij deny to
any person within its jurisdiction the equal protection of
the laws.

3

-f

STATEMENT OF THE CASE
This Certiorari is about "Structural" Error committed by a
Judge, an Officer of the Court, and the Violation of this First,
Fifan<3 Fourteenth Amendments to the United States Constitution as well as the Abuse of Discretion by the Lower St! te Courts
to do their Sworn Duty to Impartially Adjudicate these
serious Crimes and Violations. This attack on the machinery of
justice is of National Importance.
- This Certiorari involves a Judge an Officer of the Court, who
under the "Color of Law" and the "Color of Office" knowingly and
with Maleasance Impersonated an Appellate Court Judge oi one having Appellate Court Authority while he himself was a Corimon Pleas
Judge. This conduct by a Public Official is of National Impor­
tance and its impact on the delivery of justice. See Appendix E
Herein.
This Certiorari involves a Court of Common Pleas Judge, who
Created and Executed a Forged and Fraudulent Order with No_ Au­
thority or Jurisdiction to do so. This constitutes "Structural"
Error and shows that a "Biased" and "Partial" Judge presided
over Petitioner in his "Original" and Subsequent proceedings.
This is of National Importance. See Appendix
Herein.
It is of National Importance that while Common Pleas Judge
Norbert A. Nadel, was, with Malfeasance, willingly and knowingly
Creating and Executing this Forged and Fraudulent Order Herein
Appendix E, he also committed Multiple Crimes and Violations
that are listed under Questions Presented in this Certiorari
1_ thru TL_ for which he has No_ Immunity.
These Crimes that were committed by Common Pleas Judge Norbert
A. Nadel, in the Creation and Execution of Appendix E Herein are
Felonies and are of National Importance and for the Court of
Common Pleas, Hamilton County, Ohio, The First District Court of
Appeals, Hamilton County, Ohio, and the State Supreme Court of
4

Ohio to refuse to adjudicate these serious Crimes and Violations
is Disrespectful and Disgraceful to the Judicial Process. These
Officers of the Court/who took an Oath to be Impartial, Failed.
It is of National Importance when the Court of Common Pleas,
Hamilton County, Ohio, Refuses to Render a Decision in a properly
Filed " Structural" Error Motion against a "Biased," "p artial,"
and "Corrupt" Judge, an Officer of the Court, when the Facts and
Evidence presented to them Support the Motion. See Appe ndix IS
Herein, in lieu of Order or Judgment that has Not been Rendered.
It is of National Importance when the First District Court of
Appeals, Hamilton County, Ohio, Refuses to Answer or Grant Peti­

l

tioner his properly Filed "Summary Judgment" against thk Court of
Common Pleas, Hamilton County, Ohio, for its Failure to Respond
to the "Structural" Error Motion against Common Pleas Judge
Norbert A. Nadel, when the Facts and Evidence presented support
the Motion. See Appendix A Herein, in lieu of Order or Judgment
that has Not been Rendered.
It is of National Importance when a State Supreme Court Dis­
misses a properly Filed Writ of Mandamus Requesting tha: the
First District Court of Appeals Hamilton County, Ohio, to do
its Sworn Duty and Rule On / Grant the properly Filed "Summary
Judgment" against the Court of Common Pleas, Hamilton County,
Ohio, Filed by the Petitioner. See Appendix C which is the Order
from the State Supreme Court of Ohio Dismissing the Writ of Man­
damus. Also See Appendix D, the Writ of Mandamus to the State
Supreme Court of Ohio Filed by the Petitioner.
It is of National Importance when the State Supreme Court of
Ohio Dismisses a properly Filed Writ of Mandamus against the
First District Court of Appeals, Hamilton County, Ohio,jwhen
Two (2) of the Justices sitting on the State Supreme Court of
Ohio, Justice Patrick R. DeWine and Justice Patrick F. Fischer,
both served with "Biased" and "Partial" Judge Norbert A. Nadel,
when he Created and Executed his Forged and Fraudulent Order
5

with No Authority or Jurisdiction. See Appendix IS Herein.
It cannot be said that No_ Influence was present in the* State
Supreme Court of Ohio in Denying Petitioner's properly Filed
Writ.of Mandamus. See Appendix D Herein.
The
cries
undue
Court

appearence of impropriety pervades these proceedings and
out to the presence of undue influence. It is evident that
influence was exerted in this denial by the State Supreme
of Ohio.

The only path a Petitioner / Defendant has to get Justice in
His / Her case is through the Courts. It starts out in Ihe Court
of Common Pleas / Trial Court and proceeds through the Judicial
stages until, if need be^it reaches the Supreme Court o
United States.

the

But The Legal Process is Abused by the State Courts when they
Refuse to Render a Decision at all or to Grant the Entitled re­
lief all because the Crimes and Violations were committed by a
Judge, an Officer of the Court who Abused his Office anc. his
Position under the "Color of Law" and the "Color of Office."
What happen to the Courts being Impartial5! This sets a Danger­
ous precedent that when a Petitioner / Defendant has a Case with
Merit and Evidence against a "Biased," "Partial" and "Corrupt"
Judge, an Officer of the Court, that it is Ok to Cover it Up by
Refusing to Render a Decision at all. See Appendix _B anc ]£ Here­
in .
This Honorable Court has stated "That A Biased Decision Maker
Is Constitutionally Unacceptable." Withrow v. Larkin, 421 U.S.
35, 47, 95 S.Ct. 1456, 43 L.Ed.2d 712 (1975). This couldn't be
more true than in the Petitioner's case before this Honorable
Court.

6

/.

' ,

■

REASONS FOR GRANTING THE PETITION
Petitioner was charged with Aggravated Murder and a Firearm
Specification in July 2013. In January 2014, Common Plees Judge
Norbert A. Nadel, sentenced Petitioner to (20) Years to Life,
plus (3) Years on the Firearm Specification when No Firearm was
Ever recovered or Proven to be used by Petitioner.
To set the stage for this properly Filed Certiorari before this
Honorable Court, the Judge involved, an Officer of the dourt, has
been the overseer both Legally and Illegally of Petitioner's case
from 2013 thru 2016.
The right of an Accused to be presided over by a Fair and Inl­
partial Judge (Emphasis Added) is a Basic Right of Due Process
and Equal Protection under the Fifth and Fourteenth Amen dments
of the United States Constitution. Arizona v. Fulminante , 499
U.S. 279 (1991); Turney v. Ohio, 273 U.S. 510 (1927); Re Murchinson, 349 U.S. 57 (1955); Ward v. Village of Monroeville, 409 U.S.
57 (1972).
"[T]he Due Process Clause Clearly requires a Fair Tria 1 in a
Fair Tribunal Before a Judge with No Actual Bias against the
Defendant or Interest in the outcome of his particular case."
Bracy v. Gramley, 520 U.S. 899 (1997). But Obviously, Ju dge
Norbert A. Nadel Proved by his Corrupt Actions in the Cr eation
and Execution of Appendix IE Herein, that he had a personal in­
terest and was more than "Biased" in Petitioner's case.
Fairness for purposes of the Due Process Guarantee "Requires
the absence of Actual Bias in the trial of cases" and "A system
of law [Tjhat endeavor[s] to prevent even the probability of un­
fairness." In Re Murchinson, 349 U.S. 133 (1955). Appendix JE
Herein supports the claim of "Actual Bias" and that Petitioner
was Not tried before a "Fair" Tribunal.

7

It is well established that a Criminal Defendant who is tried
before a "Biased" Judge has been Denied Due Process. State v.
Lamar, 95 Ohio St.3d 181, 2002-0hio-2128, 767 N.E. 2d 166, H34,
citing Rose v. Clark, 478 U.S. 570 577, 106 S.Ct. 3101,, 92 L.Ed.
2d 460 (1986); Turney v. Ohio, 273 U.S. 510 (1927). Appendix E
Herein supports a claim of a "Biased" Judge.
Appendix E Herein supports the claim that Petitioner yas tried
by a "Biased" and "Partial" Judge, and that Petitioner's Due Pro­
cess and Equal Protection Rights under the First, Fifth and
Fourteenth Amendments to the United States Constitution were
Violated.
Any Judge, an Officer of the Court, who Lies in wait, Not Weeks
but Months, after he sentenced Petitioner, intercepts ari "Origi­
nal" Appeal from His / Her Judgment and Sentence and who Creates
and Executes a Forged and Fraudulent Order, as is demonstrated
in Appendix E Herein, without Authority or Jurisdiction to do so,
Establishes Definitively that He / She was "Biased," "Partial,"
and "Corrupt." This is also "Structural" Error.
When this "Biased" Decision Maker Created and Executed his
Forged and Fraudulent Order in Appendix E Herein, he alJo Com­
mitted Multiple Crimes and Violations listed in Question's 7 thru
22 in this Certiorari for which he has No Immunity.
This Honorable Court made it clear about the loss of Immunity
of a Judge and it is as follows: "Judicial Immunity" is overcome
if 1) The actions "Alleged" were not taken in the Judge' s Judicial Capacity, or 2) If the actions, though Judicial in nature,
were taken in the complete absence of all Jurisdiction, Forrester
v. White, 484 U.S. at 227-229; Stump v.Sparkman, 435 U.S. at 360.
Appendix IC Herein supports this Loss of Immunity.
This Honorable Court has also reconized that a Judge i s Not
absolutely Immune from Criminal Liability, Ex Parte Virgina, 100
U.S. 339, 348-349, 25 L.Ed 676 (1880). Appendix E Herein supports
this.
8

A Judge has No Immunity if an act is done in the clear absence
of all jurisdiction, for "Judicial Immunity" purposes, Lf the
matter upon which the Judge acts is clearly outside the subj ect
matter jurisdiction of the Court over which the Judge presides.
Ireland v. Tunis, 113 F.3d 1435, 1997 Fed. App. 0156 (1997);
Bradley v. Fischer, 13 Wall, at 351. Appendix _E Herein supports
this.
This Honorable Court has stated "That A "Biased" Decision Maker
Is Constitutionally Unacceptable." Withrow v. Larkin, 431 U.S. 35
47, 95 S.Ct. 1456, 43 L.Ed. 2d 712 (1975).
"Judicial Bias" is a Deep-Seated favortism or antagonism that
makes Fair Judgment Impossible. The Due Process Clause Clearly
requires a Fair Trial in a Fair Tribunal before a Judge with No_
Actual "Bias" against the Petitioner / Defendant or interest in
the outcome of his particular case. Coley v. Bagley, 706 F.3d 741
(2013).
To establish "Judicial Bias" a Petitioner / Defendant need Not
prove "Actual Bias" but merely an Unconstitutionally High Prob­
ability of Actual Bias. Coley v. Bagley, 706 F.3d 741 (2013).
Appendix E Herein proves "Judicial Bias" and "Actual Biks."
It is obvious that Appendix E Herein, which is the Forged and
Fraudulent Order Created and Executed by Common Pleas Jjdge Norbert A. Nadel, with No Authority or Jurisdiction, fits well with­
in what is needed to prove "Judicial Bias" and "Actual Bias" and
that Common Pleas Judge Norbert A. Nadel, had a personal interest
in the outcome of Petitioner's case.
Again, as stated by this Honorable Court "That A "Biased"
Decision Maker Is Constitutionally Unacceptable." Withrow v.
Larkin, 421 U.S. 35, 47, 95 S.Ct. 1456, 43 L.Ed. 2d 712 (1975).

9

So this Honorable Court doesn't get Distracted or Sidetracked
about the Indisputable Evidence in Appendix E Herein, tiie Argu­
ment, Evidence and Questions are Not about the "Sham" Appeal
mentioned within Appendix E Herein, the Argument, Evidence and
Questions presented are all about the Crimes and Violations that
were committed by Common Pleas Judge Norbert A. Nadel iJi the Creation and Execution of Appendix E Herein, under the "Color of
Law" and the "Color of Office" that Prove "Structural" Error and
that Petitioner was Tried by a "Biased," "Partial" and Corrupt
Judge in his "Original" Proceedings and beyond.
"Biased," "Partiality" and "Corruption" by a Judge, an Officer
of the Court, is Not something that can be turned on and off like
a switch. Once "Biased," "Partial" and / or "Corrupt," always
"Biased," "Partial" and / or "Corrupt." It doesn't matter in what
part of the Case the "Bias," "Partiality" or "Corruption" took
place, it Taints the whole Case and makes it Void.
Because as this Honorable has stated "That A Biased Decision
Maker Is Constitutionally Unacceptable." Withrow v. Larkin, 421
U.S. 35, 47, 95 S.Ct. 1456, 43 L.Ed. 2d 712 (1975).
Courts have Repeatedly held that Proof of Partiality of a Judge
is Not a requirement, only (Emphasis Added) the appearance of
Partiality. Liljeberg v. Health Service Acquisition Corij., 486
U.S. 847, 108 S.Ct. 2194 (1988) (What Matters Is Not The Reality
of Bias or Prejudice But Its Appearance) United States v. Balistrieri, 779 F. 2d 1191 (1985). Appendix IS Herein Proves ^ias, Par­
tiality by Common Pleas Judge Norbert A. Nadel, against Peti­
tioner .
This also supports Petitioner's claim of "Structural"jError. It
is important to Identify and State what this Honorable Court con­
siders "Structural" Error. Appendix E Herein supports "Structural
Error.
This Honorable Court has stated, ("[T]he Court's precedents

10

, i.

[have] determin[ed] that certain errors are deemed "Structural"
and require reversal because they cause fundamental unfairness,
either to the Defendant in the specific case or by pervasive
undermining of the systemic requirements of a Fair and open Ju­
dicial process. ... Those precedents include ... Turney v. Ohio,
273 U.S. 510, 535 (1927) ("Biased Judge"); Neder v. Unitjed States^
527 U.S. at 8 ("Biased Trial Judge" is 'Structural [Errdr],' and
thus [is] subject to automatic reversal"); Edwards v. Balisok,
520 U.S. 641, 647 (1997) (A Criminal Defendant Tried By A Partial
Judge Is Entitled To Have His Conviction Set Aside, No atter How
Strong The Evidence Against Him.") Appendix E Herein supports
this .
"Structural" Errors are errors that the Court will always consider to have violated your right to a Fair Trial. Therefore,
these errors are Not subject to the Harmless Error Rule, and you
do Not have to prove to the Court that you were actually harmed.
Columbia Human Rights Law Review.
To address the "Structural" Error committed by then "Biased,"
"Partial" and / or "Corrupt" Common Pleas Judge Norbert |a. Nadel,
Petitioner, on May 15, 2020, properly Filed a "Motion Td Vacate
Judgment Of Conviction Due To "Structural Error" Pursuant To The
Due Process Clause Of The Fifth And Fourteenth Amendment s To The
United States Constitution." As of this filing No answer or de­
cision has been Rendered by design of the state court. See Append­
ix B Herein in lieu of Order or Judgment that has Not be en Ren­
dered .
On September 29, 2020, due to the Failure and Refusal of the
Court of Common Pleas, Hamilton County, Ohio, to answer the
"Structural" Error Motion that was Filed on May 15, 2020, Peti­
tioner properly Filed a Motion for "Summary Judgment" in the
First District Court of Appeals, Hamilton County,,Ohio, against
the Court of Common Pleas. As of this filing No answer or de­
cision has been Rendered by design of the state court. See Append­
ix A Herein in lieu of Order or Judgment that has Not bejen Ren11

dered.
On December 12, 2020 due to the Failure and Refusal o f the
First District Court of Appeals, Hamilton County, Ohio, to answer
or Grant Petitioner s properly filed "Summarry Judgment " Peti­
tioner properly filed a Writ of Mandamus in the State Supreme
Court, asking the Court to Instruct the First District Court of
Appeals, Hamilton County, Ohio, to do its Sworn Duty and Grant
Petitioner's properly filed "Summary Judgment." See Appendix D
Herein.
On January 27, 2021 the State Supreme Court Dismissed’Peti­
tioner's properly filed Writ of Mandamus. See Appendix C Herein.
All the State Supreme Court was asked to do was to have the
First District Court of Appeals, do their Sworn Duty and answer
Petitioner's properly filed "Summary Judgment" Motion. What was
so hard about this? This is truly an Abuse of Discretion by the
State Supreme Court.
This Denial by the State Supreme Court appears "Strongly" to be
Influenced by State Supreme Court Justices Patrick R. DeWine and
Patrick F. Fischer who Both know and served with Judge istorbert A.
Nadel whom the "Structural" Error Motion is Directed.
By the Failure and Refusal of these State Courts to dd their
Sworn Duty and Adjudicate the "Structural" Error and Multiple
Crimes and Violations committed by Judge Norbert A. Nadel, an
Officer of the Court, they Violated Petitioner's First Amendment
Right to the United States Constitution which is the Right to
Speak and therefore to be Heard and Petitioner's Fifth ^nd Four­
teenth Amendments to the United States Constitution which is the
Right to Due Process.
_

'

i

By therFailure and Refusal of these State Courts to Ad judicate
the "Structural" Error and the Multiple Crimes and Viola tions
listed, _7 thru Tl_ in the Questions Presented Section of this
12

properly filed Certiorari, their Failure and Refusal to!Answer
or Rule Equates to "Silence." By their "Silence" only olie Conclu­
sion can be came to, and that is the State Courts Agreejwith the
Petitioner's Argument / Statements in his "Structural" Error and
"Summary Judgment" Motions.
Petitioner has been very diligent in Fighting his case. There
is Not One Year from 2014 until current that Petitioner has not
filed proper Motions on a number of Meritorious Issues that have
been Ignored and Covered up all because they involve a "Biased,"
and "Partial" Judge. One example is that Petitioner filed multi­
ple Motions for an Evidentiary Hearing from 2014 thru 2Q16 while
Common Pleas Judge Norbert A. Nadel was the overseer on (Peti­
tioner's case and Not One Single Motion for an Evidentiary Hear­
ing was Filed or Placed On The Docket. The Record is Silent.
The Criminal behavior by Judge Norbert A. Nadel in Appendix E
Herein supports why Petitioner's Motions never got filed or put
on the Docket.
Something of importance that Petitioner would like for this
Honorable Court to consider is the following: when a Pet itioner /
Defendant files His / Her Appeal, addressed to the First District
Court of Appeals, as Petitioner did, why would the Clerls of
Courts give it to the Common Pleas Judge who presided over and
sentenced Petitioner in his "Original" proceedings at the trial
court level to rule on? Appendix E Herein supports this.j
The Clerk of Courts had to be Instructed by Common Pleas Judge
Norbert A. Nadel that if Petitioner filed an Appeal makJ sure he
got it so he could rule on it. How else would he have been in
pocession of it months after he tried and sentenced Petitioner?
All of this proves and supports "Structural" Error and more and
that Petitioner is Entitled to at Minimum a New Trial.

13

It is the Prayer of Petitioner that this Honorable Co urt agrees
with the Facts and Evidence presented herein and Grant this Certiorari and the requested relief which is a New Trial and any
other relief as deemed by the court.

CONCLUSION
Respectfully, the Writ of Certiorari should be Granted.

Respectfully submitted,

DANIEL LITTLEPAGE
A697296
P.0. BOX 5500
CHILLICOTHE, OHIO 45601

DATE: MARCH 27, 2021

14

